                                                   NATIONAL
                                                    OFFICE OF SCIENCE
                                                              NSPECTORFOUNDATION
                                                                        GENERAL



  "..!
 C                                                     OFFICE OF INVESTIGATIONS
 z
  a
  4
      0                                       CLOSEOUT MEMORANDUM
      ON o a%\'

Case Number: A05070050
                                                                                    1          Page 1 of 1



          An allegation was received that data appearing in a publication' acknowledging NSF support2
          had been improperly manipulated. No evidence for improper manipulation of the data was
          found, and the data sets continue to be revised and refined in collaborative efforts involving all of
          the researchers.

          Accordingly, this case is closed.




          ' Redacted.
            Redacted.




NSF OIG Form 2 ( 1 1/02)
